No. 20A53, 20A54

In the Supreme Court of the United States
JOSEPH B. SCARNATI, III, ET AL.,
Applicants,
v.
KATHY BOOCKVAR, SEC’Y OF PENNSYLVANIA, ET AL.,
Respondents.
REPUBLICAN PARTY OF PENNSYLVANIA,
Applicant,
v.
KATHY BOOCKVAR, SEC’Y OF PENNSYLVANIA, ET AL.,
Respondents.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I certify that the accompanying
amicus curiae brief of Eagle Forum Education & Legal Defense Fund in the above-captioned
matter contains 5,275 words (and 22 pages) and that the accompanying motion
contains 474 words (and 2 pages), excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 5, 2020.

/s/ Lawrence J. Joseph
Lawrence J. Joseph
1250 Connecticut Ave, NW, Suite 700-1A
Washington, DC 20036
Tel: (202) 355-9452
Email: lj@larryjoseph.com
Counsel for Amicus Curiae

